ASSESSMENT OF FAA’S RISK-BASED
SYSTEM FOR OVERSEEING AIRCRAFT
   MANUFACTURERS’ SUPPLIERS
      Federal Aviation Administration
       Report Number: AV-2008-026
      Date Issued: February 26, 2008
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Assessment of FAA’s                                Date:    February 26, 2008
           Risk-Based System for Overseeing
           Aircraft Manufacturers’ Suppliers
           Federal Aviation Administration
           Report Number AV-2008-026

  From:    David A. Dobbs                                          Reply to
                                                                   Attn. of:   JA-1
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Acting Federal Aviation Administrator

           This report presents the results of our audit of the Federal Aviation
           Administration’s (FAA) oversight of aircraft manufacturers’ quality assurance
           systems for suppliers. Because aircraft and engine manufacturers are increasingly
           taking an international partnership approach to business, aircraft parts and
           component suppliers now produce significant parts of U.S.- and foreign-
           manufactured aircraft. For example, suppliers may ship a completed section of an
           aircraft body (fuselage), with much of the wiring already completed, to the
           primary manufacturer who assembles the final units together. U.S. and foreign
           aircraft and engine manufacturers have opted for this approach because it spreads
           risk and cost across a network of domestic and foreign partners, speeds up product
           development, and simplifies assembly procedures.

           The audit objective was to evaluate FAA’s oversight of aircraft manufacturers’
           quality assurance systems for domestic and foreign suppliers. Although aviation
           manufacturers are ultimately responsible for the quality of their products, FAA’s
           Aircraft Certification Service personnel oversee manufacturers’ processes for
           ensuring that the products meet approved design specifications and are in a
           condition for safe operation. During this review, we worked with personnel from
           an international air transport consulting firm and performed supplier control audits
           at companies that supply parts to Boeing, Bombardier/Learjet, General Electric
                                                                                                                   2


Aircraft Engines, Rolls-Royce, Pratt & Whitney, and Airbus. 1 We also analyzed
FAA’s process for identifying and selecting suppliers it audits to determine the
effectiveness of manufacturers’ supplier oversight systems. Exhibit A details our
scope and methodology. Exhibit B lists the entities we visited or contacted.


BACKGROUND
Inspectors in FAA’s Manufacturing Inspection District Offices (MIDO) oversee
FAA-approved manufacturers 2 in their geographic areas. There are 23 MIDOs 3
and 1 Certificate Management Office, 4 with 195 inspectors to oversee the
1,738 FAA-approved manufacturing facilities in the United States. Although FAA
does not approve manufacturers in other countries, U.S. manufacturers use both
domestic and foreign suppliers to build their products. FAA is to monitor these
suppliers as part of its oversight of FAA-approved manufacturers’ quality
assurance systems.

Manufacturers are increasingly using domestic and foreign parts and system
suppliers to reduce their manufacturing costs and spread risks among multiple
partners. Suppliers provide investment capital and assume responsibility for the
design and production of systems and sub-systems supplied to prime
manufacturers. For example, Boeing’s risk-sharing partners in Japan, Italy, and
the United States will build composite structures for the Boeing 787, which will
include sub-systems that are already certified, tested, and ready for final assembly.

According to a March 2005 study by the U.S. Department of Commerce, 5 the
practice of subcontracting major portions of aircraft manufacturing also opens
foreign markets for future aircraft sales. Major manufacturers develop agreements
with foreign suppliers to produce major segments of their aircraft in exchange for
large aircraft orders from the country’s carriers. These agreements can amount to
billions of dollars in sales for the manufacturer. For example, in order for Boeing
to sell Boeing 747s to Air China, at least part of the final product (no matter how
small) must be manufactured or assembled in China.



1
    FAA does not have direct oversight responsibility for Airbus aircraft because they are not produced in the
    United States. However, according to Boeing representatives, 70 percent of the suppliers used by Airbus are also
    used by Boeing.
2
    FAA-approved manufacturers are those manufacturers that hold an FAA certificate, such as a production certificate
    or a parts manufacturer approval.
3
    Five offices are Manufacturing Inspection Satellite Offices, which are extensions of nearby MIDOs.
4
    The Certificate Management Office is dedicated to oversight of the Boeing Company. The Certificate Management
    Office is located in Renton, Washington, with other offices in Everett, Washington (co-located with Boeing
    production facilities).
5
    “The U.S. Jet Transport Industry: Competition, Regulation, and Global Market Factors Affecting U.S. Producers,”
    U.S. Department of Commerce, International Trade Administration, March 2005.
                                                                                                   3


The evolution of Boeing aircraft over the last 40 years clearly illustrates how
manufacturing business models have changed. As shown in figure 1, Boeing’s
first aircraft were built almost exclusively in the United States. In contrast, the
airframe parts for the new Boeing 787 will primarily be manufactured by foreign
suppliers.

              Figure 1. U.S.- Versus Foreign-Supplied Parts on
                           Boeing Aircraft Models
     Part of         727         737         747         757         767      777          787
    Airframe        (1964)      (1967)      (1969)      (1982)      (1982)   (1995)       (2008)
 Wings
 Inboard Flaps
 Outboard Flaps
 Engine Nacelles
 Engine Strut
 Nose
 Front Fuselage
 Center Fuselage
 Center Wing Box
 Keel Beam
 Aft Fuselage
 Stabilizer
 Dorsal Fin

 Vertical Fin
 Elevators
 Rudder
 Passenger Doors
Source: This information was obtained from multiple sources, including independent technical reviews
and manufacturers’ and suppliers’ websites.



RESULTS IN BRIEF
Since 1998, FAA has worked towards implementing a risk-based oversight system
for aviation manufacturers. However, this system was implemented in fiscal year
(FY) 2003 and does not take into account the degree to which manufactures now
use suppliers to make aviation products. FAA based the new system on historical
manufacturing business models, in which manufacturers maintain primary control
over the production of their aircraft rather than use suppliers to design and
manufacture extensive portions of aircraft.
                                                                                                                      4


We found that FAA needs to improve its risk-based oversight system as it does not
ensure that manufacturers regularly audit their suppliers. FAA also does not
perform enough audits of manufacturers’ suppliers (i.e., supplier control audits) to
test how well manufacturers’ quality assurance systems are working. Rather, FAA
requires its inspectors to conduct, at most, four supplier audits regardless of how
many suppliers a manufacturer uses. This process is not adequate to determine the
risk that a manufacturer will produce substandard parts. FAA’s process for
supplier audits should be designed to address newer manufacturing business
models, which have expanded the number of foreign suppliers, locations where
parts are assembled, and the degree of independent manufacturing responsibility
suppliers now have.

We also found that the risk assessments FAA inspectors use to evaluate a
manufacturer’s potential for producing substandard products exclude pertinent
information that would aid in evaluating risks. For example, inspectors do not
routinely evaluate the results of manufacturers’ audits of their suppliers. In our
view, manufacturers’ assessments of their suppliers, if properly conducted, would
provide valuable information that FAA inspectors could use to assess risk and
target inspection resources. Risk-based oversight is the right direction for FAA,
but it needs to strengthen its system for overseeing aircraft and aircraft part
suppliers so that its oversight is effective in today’s manufacturing environment.

Finally, we determined that FAA’s inspections at supplier facilities were too
focused on specific tasks rather than overall quality systems. Using a more
uniform approach to supplier audits, our aviation consultants identified widespread
deficiencies at supplier facilities used by major aviation manufacturers. We found
that some aircraft manufacturers had not designed effective oversight systems for
their aircraft part suppliers. Although manufacturers are ultimately responsible for
the quality of parts used on their aircraft, three of the five manufacturers we
reviewed did not have procedures in place to routinely visit all their critical 6
suppliers and sub-tier suppliers. Consequently, neither manufacturers nor FAA
inspectors have provided effective oversight of suppliers; this has allowed
substandard parts to enter the aviation supply chain.

We made a series of recommendations designed to enhance FAA’s oversight of
manufacturers’ suppliers. Our full recommendations are listed on page 15.

On December 6, 2007, we met with FAA officials to discuss our draft report
issued on November 14, 2007. During this meeting, the manager of the
Production and Airworthiness Certification Division stated that FAA generally

6
    We considered critical parts as those included on FAA’s Category Parts List, or parts or part assemblies whose
    failure could prevent continued safe flight and landing, degrade performance, or cause loss of capability to conduct
    certain flight operations.
                                                                                   5


agreed with our recommendations and considered them to be reasonable. In its
December 18, 2007, written response to our report, FAA partially concurred with
one recommendation and fully concurred with the remaining five. FAA also
provided action plans to address each recommendation. FAA’s comments and our
response are fully discussed on pages 15 through 17.


FINDINGS
We found weaknesses throughout FAA’s oversight system for manufacturers and
their suppliers. First, FAA has not ensured that manufacturers are providing
oversight of their suppliers. Manufacturers are the first line of defense in ensuring
the products used on their aircraft meet FAA and manufacturers’ standards. Yet,
during the 24 months preceding our review, manufacturers had not audited 6 of the
21 critical part suppliers we visited.

Second, FAA does not require inspectors to perform enough audits of suppliers to
determine how well manufacturers’ quality assurance systems are working.
FAA’s guidance for overseeing manufacturers’ quality assurance systems only
requires inspectors to perform, at most, four supplier audits, regardless of how
many suppliers the manufacturer uses.

Third, the systemic deficiencies we identified at the 21 supplier facilities we
visited indicate that manufacturers and FAA need to strengthen their oversight of
these facilities. For example, nearly half (43 percent) of the suppliers had
deficiencies in their tool calibration and employee training programs. Deficiencies
in these areas could impact the quality of the parts these suppliers produce.


FAA Oversight of Manufacturers’ Quality Assurance Systems for
Suppliers Needs Improvement
Manufacturers are responsible for ensuring that their aviation products are
properly produced. Yet, three of the five major manufacturers we reviewed had
not developed requirements to perform regular supplier audits. FAA regulations
require manufacturers to have an FAA-approved quality control system. Further,
FAA guidance states that this system should include procedures for initial and
periodic supplier audits. Although all five manufacturers we reviewed had
supplier oversight procedures in their quality assurance manuals, only two had
developed requirements to perform regular supplier audits (e.g., once every
2 years). For example, one manufacturer allowed mail-in surveys as an alternative
to on-site audits. Another conducted initial supplier audits but established no
timeframes for re-evaluation. FAA requires that manufacturers’ quality control
systems provide a means to determine that supplier-produced components
                                                                                  6


(e.g., materials, parts, and subassemblies) or services (e.g., special processes,
calibration, etc.) conform to FAA-approved design standards and are in condition
for safe operation. On-site audits permit manufacturers to verify that the suppliers
they use produce parts according to these standards.


FAA Needs To Strengthen Its Risk Assessment Process
The second line of defense for ensuring that only safe aviation products enter the
market is FAA’s oversight structure for manufacturers and their suppliers. FAA
inspectors currently perform risk assessments of each manufacturer to determine
how many supplier audits FAA will conduct to test the effectiveness of
manufacturers’ quality assurance systems. In conducting these audits, FAA
inspectors review the suppliers’ organizational management structure, procedures
for product design control, software quality assurance, manufacturing processes,
manufacturing controls (including calibration), and supplier control (how well the
suppliers oversee the vendors that supply parts to them).

The results of these audits provide inspectors with information on how well
manufacturers are overseeing their suppliers. For example, a series of negative
findings at multiple suppliers for a manufacturer would indicate the manufacturer
needs to strengthen its quality assurance system or audit processes. Yet, when
they perform risk assessments and determine how to target FAA inspections,
inspectors do not consider the number of suppliers that manufacturers use or the
level of responsibility that suppliers have in producing aviation products.

Additionally, FAA inspectors are not required to evaluate the results of supplier
audits conducted by manufacturers. In our view, these results would be a valuable
source of information in assessing risk, identifying systemic weaknesses, and
determining where to use inspection resources. For example, in one supplier audit
we reviewed, a manufacturer found part inspections were not signed off by the
supplier’s part inspection personnel, operations that were listed incorrectly, and
gauges that were not calibrated. In another manufacturer’s audit, the auditor
identified paperwork differences on the number of items shipped or scrapped and
determined there was no evidence of any internal quality audits for a 2-year
period. This information could aid inspectors in identifying problem suppliers as
well as manufacturers’ quality assurance programs that work well and need less
oversight. For example, an inspector responsible for engine manufacturing
oversight stated that he only reviewed prior audits conducted by the manufacturer
about 50 percent of the time.

FAA’s risk indicators do not provide inspectors with an effective tool to
consistently assess risk. FAA developed 21 risk-based indicators to aid
inspectors in assessing manufacturers’ quality systems. For example, FAA
                                                                                   7


determined that events such as key management changes, new manufacturing
processes, and workforce reductions were integral to assessing the risk that
manufacturers could produce substandard parts.

Although the 21 indicators focused on areas within a manufacturer’s operation that
might indicate risk, FAA did not consider how individual inspectors could apply
those indicators. For example, “reduction in workforce” may or may not have an
impact on safety and the potential for producing substandard parts, depending on
how, when, and where the staff reduction occurred. Given their institutional
knowledge and the room for subjectivity in the risk assessments, each inspector is
prone to weigh the 21 criteria differently. To illustrate, we identified an engine
manufacturer that was rated differently every year over 4 years by separate
inspectors. Although the same 21 areas were evaluated each time, 1 inspector
considered the manufacturer a high risk, while another did not.

A sound evaluation of the risk criteria when assessing risk with aviation
manufacturers is critical because inspectors rely on the results of these
assessments to determine how many supplier audits they will conduct to test the
effectiveness of manufacturers’ quality assurance systems. That is, the level of
risk determined by inspectors dictates the level of oversight inspectors are required
to provide at a manufacturer and its supplier facilities. For example:

 • A high-risk manufacturer will be inspected every 3 months, and the inspector
   will have to perform audits of at least four of the manufacturers’ suppliers that
   year.

 • A low-risk manufacturer will be inspected once every 3 years, and the
   inspector will not have to perform any supplier audits.

Other factors may also affect inspectors’ application of the risk indicator criteria.
For example, because these determinations impact their workload, inspectors may
have incentive to lower the risk assessment of the manufacturer for which they
have oversight responsibility. The manager for one MIDO agreed that this was a
possibility and advised us that his inspector workload had been cut almost in half
under the new risk-based system.

We also found that some inspectors’ application of the risk assessment process
may have been hindered because of their resistance to change. For example, some
inspectors disregarded FAA guidance on how to select suppliers for review
because they believe the system removes the consideration of the “field
knowledge” inspectors possess for the facilities they oversee. Inspectors at three
of the five offices we visited judgmentally selected suppliers for review rather than
using the prescribed risk-based methodology. Additionally, we identified a
manager at one office that changed the results of the statistical sample because he
                                                                                     8


did not have sufficient travel funds to complete audits of the selected foreign
suppliers. The manager instructed inspectors to select suppliers in their local area
in place of the foreign suppliers.

FAA’s risk indicators overlook the increased role of suppliers. In assessing
risks and determining how to target their inspection resources, inspectors do not
consider the number of suppliers that manufacturers use and the level of
responsibility suppliers have assumed. For example, at the time of our review,
FAA had never inspected one critical parts supplier of major structural
components, such as landing gear. Additionally, FAA does not maintain a
complete universe of manufacturers’ foreign, domestic, and sub-tier suppliers to
identify inspection priorities.

The increased use of suppliers is not considered in FAA’s risk assessment process.
This is particularly troubling because, since 2001, FAA has highlighted
manufacturers’ oversight of suppliers as one of the top six areas in which the
manufacturing industry must improve. For example, FAA determined in FY 2005
that 10 percent of the quality assurance system violations inspectors identified at
manufacturing facilities were related to supplier oversight. Therefore, FAA’s own
internal reviews have determined that manufacturers are not providing sufficient
oversight of their suppliers.

We acknowledge that it is not FAA’s responsibility to provide oversight of
manufacturers’ suppliers. However, in our view, it is counterintuitive to decrease
the number of supplier audits that FAA performs when use of suppliers has
steadily increased and FAA has consistently determined that supplier oversight is
a problem.


FAA Does Not Require Enough Supplier Control Audits To Assess
Manufacturers’ Quality Assurance Systems
FAA’s supplier selection process results in widely disparate and, in some cases,
very limited audit coverage of manufacturers’ suppliers. To illustrate, based on
FAA guidance, a manufacturer that has 2,000 suppliers and is assessed as a high
risk will require the same number of supplier audits as a high-risk manufacturer
that has only 20 suppliers. Inspectors are only required to perform, at most, four
supplier audits regardless of the size of the manufacturer, the number of suppliers
used, or the criticality of the part produced. For example, for 2 consecutive years,
FAA scheduled the maximum of four supplier audits for a manufacturer of
agricultural aircraft (i.e., crop dusters). Conversely, for one of these years, another
FAA inspector did not perform any supplier audits for a major engine
manufacturer for commercial aircraft.
                                                                                                                    9


Supplier control audits are a primary tool that FAA uses to assess how well
manufacturers’ oversight systems are working. Equally important, these audits
function as a second layer of control for preventing improperly produced parts
from entering the market. However, as shown in the table below, in each of the
last 4 years, FAA has inspected an average of 1 percent of the total suppliers used
by the five manufacturers we reviewed. At FAA’s current surveillance rate, it
would take inspectors at least 98 years to audit every supplier once. This is
particularly troubling because, as discussed previously, manufacturers are not
evaluating these suppliers frequently or comprehensively.

             Table. Number of Supplier Audits Completed by FAA
                       for Five Major Manufacturers
                                              Supplier Audits Completed by FAA
    Manufacturer           No. of         FY 2003 FY 2004 FY 2005 FY 2006                                 Avg. %
                          Supplier                                                                        Per FY
                         Facilitiesa/
           A              4,012               2                  1            7               4               1%
           Bb/            2,553              31                 26           15              27               1%
           C                706               5                  4            4               6               1%
           D                489               5                  3            1               2               1%
           E                367               0                  2            3               2               1%
a/
     Number of supplier facilities based on information obtained for 2004.
b/
     This manufacturer operates seven separate manufacturing divisions. As a result, FAA evaluated the seven divisions
     separately for risk assessment purposes, which resulted in more supplier control audits.
     Source: FAA's National Supplier Control Audit Schedules, FY 2003-2006

Concerns about supplier oversight are even more serious given the number of
countries around the world that produce parts for U.S. aircraft manufacturers
without a bilateral agreement with the United States. 7 When entering into a
bilateral agreement, the United States agrees to accept the oversight of
manufacturers provided by that country’s aviation authority, among other things.
A fundamental consideration in whether or not to enter into a bilateral agreement
is the capacity and ability of the foreign civil aviation authority to oversee aviation
manufacturing.

Yet, suppliers in some countries that do not have bilateral agreements with the
United States provide significant contributions to the production of U.S. aircraft,
such as engine parts and aircraft doors. As shown in figure 2, 15 countries with
which the United States does not have a bilateral agreement produce parts for U.S.
aircraft manufacturers. For example, one U.S. engine manufacturer has eight
suppliers in Mexico, but the United States does not have a bilateral agreement with

7
     A bilateral agreement is a government-to-government agreement with other countries to provide for the reciprocal
     acceptance of aeronautical products.
                                                                                                            10


this country. Therefore, FAA has no assurance that these countries are providing
adequate oversight of the operations of suppliers in their countries.

       Figure 2. Countries Without a Bilateral Agreement That
                 Make Parts for U.S. Manufacturers


                                                   Luxembourg        Ukraine

                                        Portugal                   Turkey      Uzbekistan        S. Korea
                                                Tunisia   Greece
                                           Morocco                                Pakistan
        Mexico                                                              UAE          India
          Costa
          Rica




                  Chile




Source: Manufacturers’ supplier lists

Effective oversight of suppliers is essential to ensure that substandard parts do not
enter the aviation supply chain. For example, in February 2003, 1 supplier
released approximately 5,000 parts that were not manufactured properly for use on
landing gear for large commercial passenger aircraft. At least one of these landing
gear parts failed while in service. While FAA became aware of this large-scale
breakdown at this supplier in 2003, it has not performed a supplier audit at this
facility in the last 4 years.

To obtain assurance that manufacturers’ quality assurance systems are operating
properly, FAA must develop a system of supplier oversight in which the number
of suppliers audited more closely correlates to the number of suppliers used and
ensure its inspectors follow this system. Given the trend toward increased use of
suppliers, FAA must adjust its oversight approach so that its surveillance occurs
where the majority of aviation manufacturing takes place: foreign and domestic
supplier facilities.


Systemic Weaknesses Identified at Supplier Facilities Indicate That
Manufacturers and FAA Must Strengthen Supplier Surveillance
To test manufacturers’ and FAA’s oversight of supplier facilities, our aviation
consultant reviewed operations at 21 foreign and domestic suppliers used by major
U.S. and foreign aircraft manufacturers. The suppliers we selected produced key
parts for these major manufacturers but had not been inspected by FAA in the
                                                                                                                                                                                                 11


2 years preceding our review. The checklist we used to conduct these audits
addressed the same areas that FAA inspectors review when conducting supplier
control audits. Our on-site audits covered the supplier’s quality system—from the
contracts with the manufacturer to the actual parts production, part inspections,
facility and production line safety, and shipping.

We identified widespread discrepancies at 20 of the 21 suppliers we reviewed,
such as suppliers’ inadequate oversight of the part and component suppliers they
use (i.e., sub-tier oversight), use of out-of-date tools and equipment, and failure to
complete all product testing before shipping parts to the manufacturer. The
pervasive nature of the discrepancies we identified indicates that manufacturers
and FAA must improve their oversight processes.

While we found incidents of non-compliance in every area audited, we found
widespread non-compliance in sub-tier supplier oversight, tooling calibration,
employee training, and inspection (see figure 3).

                                    Figure 3. Percentage of Supplier Facilities Where
                                                Deficiencies Were Found
                            21
     .




                            18

                                                                                                                    67%             67%
                            15
                                                                                                    62%
     Number of Facilities




                            12
                                                                                                                                                       43%           43%
                                                                                         38%
                              9

                                                        24%             29%                                                                                                    24%         19%
                              6

                                      10%
                              3


                              0
                                                            ns
                                       ty




                                                                                                                                     i on
                                                                        t




                                                                                                                                                    n
                                                                                      n


                                                                                                  t
                                                        t io




                                                                                                                                                               ing
                                                                                                                  t
                                                                     gh
                                     mi




                                                                                                 igh



                                                                                                              ig h




                                                                                                                                                                            act
                                                                                                                                                 tio
                                                                                   tio




                                                                                                                                                                                           m
                                                                                                                                 t at
                                                     rec



                                                                 rsi




                                                                                                                                                                                        ste
                                                                                                                                                           ai n
                                     r




                                                                                                                                                 bra
                                                                                     c




                                                                                                                                                                          tr
                                                                                              ers
                                 nf o




                                                                                                           ers


                                                                                                                               en
                                                                                  pe
                                                                   e
                                                  Di




                                                                                                                                                                       on


                                                                                                                                                                                      Sy
                                                                                                                                                         Tr
                                                                Ov




                                                                                                                             um
                                                                                            Ov




                                                                                                                                             al i
                                                                                                         Ov
                                                                               Ins
                              Co




                                                                                                                                                                        C
                                              fg.




                                                                                                                                                                                  lity
                                                                                                                                                          e
                                                                                                                                            gC
                                                                                                                          oc
                                                            fg.




                                                                                                                                                                    lid
                                                                                            A




                                                                                                                                                       ye
                                                                                                         ier
                                                                             t
                               t

                                         M




                                                                          uc




                                                                                                                        /D
                            uc




                                                                                         FA




                                                                                                                                                                                  a
                                                                                                                                                   plo
                                            M




                                                                                                                                                                 Va
                                                                                                                                      lin
                                                                                                     b- T




                                                                                                                                                                               Qu
                                        w




                                                                          od
          od




                                                                                                                   rds
                                     llo




                                                                                                                      o

                                                                                                                                                 Em
                                                                       Pr
       Pr




                                                                                                                    To
                                                                                                  Su
                                   Fo




                                                                                                                 co
                                                                                                               Re




 Source: DOT-OIG FAA OEM Oversight
 Audit, Simat, Helliesen and Eichner, Inc.
 (SH&E)                                                                                     Category of Deficiency

Of the 21 facilities audited, 6 had little or no recorded oversight by the
manufacturer during the 24 months preceding our visit. During the same period,
five of the six supplier facilities that had not received oversight by the
manufacturer also had not received any oversight by FAA. These six facilities
manufacture critical parts, such as aircraft lighting systems, cockpit voice
                                                                                   12


recorders, and pressure switches and controls.        The specific weaknesses we
identified are detailed below.

Suppliers did not provide adequate oversight of their part and component
sub-tier suppliers. Manufacturers were not verifying that their suppliers were
providing effective oversight of the sub-tier suppliers they used to produce parts.
This is a critical safety issue, as demonstrated by four engine failures that occurred
in FY 2003 due to faulty speed sensors on fuel pumps obtained from a supplier.
Three of the engine failures occurred on the ground and one occurred in flight.
The part failures were traced to unapproved design changes made by a sub-tier
supplier. In all, 152 parts were manufactured in the suspect population.

Examples of the problems we identified in this area include the following:

 • For the 2 years prior to our review, 14 of 21 suppliers (67 percent) did not
   perform regular, on-site evaluations of their sub-tier suppliers. These suppliers
   relied on mail-in self-evaluations provided by their sub-tier suppliers or relied
   on an industry standard quality system certification (e.g., ISO 9001) in place of
   an on-site audit.

 • A supplier of passenger service units (the panels above a passenger’s seat with
   the reading light and the panels that open to reveal the emergency oxygen
   masks) relied on mail-in self-evaluations for its sub-tier suppliers. Any sub-
   tier supplier that makes the supplier’s “10 worst suppliers” list (based on the
   number of parts rejected during receiving inspections) would receive an on-site
   audit.

Suppliers did not have effective tool calibration programs. Manufacturers
were not ensuring that their suppliers’ tools were calibrated accurately. Proper
tool calibration ensures that equipment used to perform measurements on parts
corresponds to universal industry standards (i.e., tools measure accurately).
Examples of problems we identified include the following:

 • Nine of 21 suppliers (43 percent) used improperly calibrated tooling in
   manufacturing and inspection operations.

 • One supplier’s calibration tracking system showed that approximately
   94 percent of the tools were past due for calibration. Some of the tools were
   out of date for 3 to 4 years. There was no procedure to follow up on
   out-of-date calibrations and no well-defined procedure to address a product
   that may be inspected or manufactured using improperly calibrated tooling.

 • An employee at another supplier checked the oxygen door on the passenger
   service unit with an uncalibrated tool that was even marked “uncalibrated.”
                                                                                   13


   We found no evidence that these dimensions were checked anywhere else in
   this production operation.

 • At another supplier, an employee used a piece of paper, scotch-taped to the
   work surface, as a measuring device for a length of wire on an oil and fuel
   pressure transmitter.

Suppliers’ employee training programs were inadequate. We found that
manufacturers’ suppliers did not always properly train their employees to perform
their assigned tasks or document the training in employees’ training records. We
found the following deficiencies in this area:

 • Nine of 21 suppliers (43 percent) did not have adequate control over employee
   training and training records. We found that (1) employees were inadequately
   trained for their responsibilities or (2) records proving their training were never
   created.

 • One supplier allowed new, untrained employees to manufacture several
   components. We witnessed one new employee improperly inspecting a
   product. A later review of his training record showed that he had not received
   any formal training in the proper inspection method. This was the same
   supplier mentioned previously that used a piece of paper as a measuring device
   for an oil and fuel pressure transmitter.

Suppliers did not have adequate procedures in place to inspect the parts they
produced. Suppliers were not properly inspecting their product to ensure they
were following the requirements provided by the prime manufacturer. For some
suppliers, this is even more critical when they are given the authority to ship the
parts they supply directly to another supplier. We identified a failure to follow
proper procedures during either the parts in-process or final part inspections at 8 of
the 21 suppliers (38 percent).

 • We observed one supplier performing unauthorized, undocumented re-work of
   parts. The supplier had experienced problems with panels that allowed
   emergency oxygen masks to deploy. The quality manager asserted that the
   panels were manufactured according to the engineering drawings but
   sometimes did not open properly. To remedy this problem, the supplier used a
   small grinder to remove some of the material on the panel. This process had
   not been approved by the prime manufacturer.

 • At another supplier, a receiving clerk showed us a part that did not conform to
   specifications but then placed the non-conforming part back into the original
   box and forwarded it to inspection. The non-conforming part was not
                                                                                 14


   documented, segregated, tagged, or otherwise communicated to the receiving
   inspection department.

 • At one supplier, records for a weld operation had not been properly approved
   by the operator. The operator proceeded to sign the records in front of us
   without conducting the inspections.

The systemic nature of the issues we identified suggests that manufacturers and
FAA inspectors are overlooking key areas when they conduct supplier audits. We
found that FAA inspectors individually determine how and what to inspect at each
supplier facility. FAA inspectors we observed focused on task-specific items,
such as the calibration of one tool, rather than on processes or systems in place at
the facility. Additionally, inspectors did not follow a standardized inspection
process when conducting supplier audits. To supplement their institutional
knowledge, FAA inspectors could benefit from additional training on how to
conduct comprehensive quality assurance system reviews.

FAA must enhance its oversight of manufacturers’ quality assurance systems both
for the selection and execution of supplier audits as well as for the number of
audits conducted. FAA must also ensure that manufacturers enhance their
oversight of suppliers and sub-tier suppliers so that defective parts do not escape
supplier facilities for subsequent installation on aircraft.
                                                                                 15




RECOMMENDATIONS
We recommend that FAA:

 1. Require manufacturers to establish criteria for conducting on-site audits for
    initial supplier approval and conduct periodic audits of suppliers to ensure
    that quality assurance systems are followed throughout the supply chain.

 2. Develop a risk assessment process that emphasizes suppliers of flight-critical
    parts (e.g., those that manufacture critical and high-volume parts or use large
    numbers of suppliers, etc.) for passenger aircraft.

 3. Develop a risk assessment process that reduces the level of subjectivity in
    evaluating manufacturers so that inspectors’ risk assessments will be more
    consistent.

 4. Require inspectors to review prior manufacturers’ audits of suppliers as part
    of their analysis of risk and determination of resource targeting.

 5. Modify its supplier audit requirements so that the number of audits that
    inspectors are required to conduct more directly correlates with the number
    of suppliers used by the prime manufacturer.

 6. Provide inspectors with training on (a) auditing systems or processes in
    addition to individual or task-specific elements of a supplier’s operations and
    (b) processes for documenting the results of their reviews.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On December 6, 2007, we met with FAA officials to discuss our
November 14, 2007, draft report. In its December 18, 2007, written response,
FAA partially concurred with the first recommendation and fully concurred with
the remaining five recommendations. FAA provided action plans to address each
recommendation. In its response, FAA also stated that it respectfully disagreed
with certain statements in our draft report. We incorporated FAA’s suggested
changes as appropriate. FAA’s entire response is included as an appendix to this
report.

FAA partially concurred with our recommendation to require manufacturers to
perform on-site audits for initial supplier approvals and conduct periodic audits of
suppliers thereafter. FAA stated that there is no regulation to implement this
                                                                                  16


recommendation as a requirement. However, FAA did agree that additional
supplier selection criteria would be appropriate.

FAA agreed to revise its manufacturers’ guidance on supplier surveillance
procedures. The revised guidance would include a process for manufacturers to
evaluate and select suppliers for audit based on suppliers’ (1) capability to perform
all manufacturing activities, inspections, and tests necessary to determine whether
parts conform to design data and (2) ability to meet specified requirements.
FAA’s proposed criteria for selection, evaluation, re-evaluation, and disapproval
of suppliers would include initial, ongoing and periodic evaluations of suppliers
based on risk.

While FAA’s response partly addresses recommendation 1, FAA’s proposed
changes to Advisory Circular 21-20 appear to be minimal and are not specific
enough for us to determine whether the changes will fully address the systemic
problems we identified. For example, we question how effectively a new supplier
could be evaluated for risk without the manufacturer visiting the supplier’s
facility. The fact that it is termed an “initial evaluation” would seem to indicate
that the manufacturer would not have historical data to use in assessing risk.

While we agree that manufacturers cannot visit every supplier every year, the
range of problems we found at suppliers indicates that manufacturers need better
FAA guidance to develop an effective quality control system. This system must
ensure that suppliers conform to design data and meet specified requirements.

To fully address our recommendation, we believe FAA needs to emphasize on-site
reviews of suppliers. The nature and number of discrepancies found at suppliers
we visited would not have been identified through records reviews only. For
example, a supplier of fuel system parts for a major manufacturer had no record of
the manufacturer ever completing an on-site audit of their facility. We found
numerous deficiencies at this facility, including problems with the calibration
program, employee training, and product inspection.

Until FAA can provide more specific information on how it will revise its
Advisory Circular, we consider recommendation 1 to be unresolved.

FAA concurred with recommendations 2 through 5. In response, FAA agreed to
take the following actions:

   • Develop and include as a risk indicator the manufacturer’s use of suppliers
     of flight-critical parts.
   • Create and implement metrics to monitor changes to its resource targeting
     output.
                                                                                17


   • Develop less subjective risk indicator questions and specific instructional
     material and incorporate the new questions into its risk based oversight
     system and database.
   • Develop and issue Directive material that will require the review of a
     sample of manufacturers’ supplier audits and use the results of the audits as
     input for the following year’s risk assessment of the manufacturer.
   • Develop a supplier control audit quantity approach, develop and implement
     new Directive material on the approach, and train inspectors on the new
     Directive.

With the exception of recommendation 1, we consider FAA’s planned actions to
be responsive. When properly implemented, FAA’s actions should significantly
enhance its surveillance of manufacturers’ quality assurance systems for suppliers.
However, the final implementation dates for FAA’s proposed actions are projected
from 2009 to 2010. We therefore consider recommendations 2 through 5 resolved
but open until FAA completes its proposed actions.


ACTIONS REQUIRED
We request that FAA provide additional information detailing the specific changes
the Agency will incorporate into the revised Advisory Circular on Supplier
Surveillance Procedures. We are satisfied with FAA’s planned actions to address
recommendations 2 through 5. According to the provisions of DOT Order
8000.1C, we will follow up with FAA to ensure that its corrective actions are
consistent with our recommendations.

We appreciate the courtesies and cooperation of Federal Aviation Administration
representatives and manufacturers’ suppliers during this audit. If you have any
questions concerning this report, please contact me at (202) 366-1427 or
Lou E. Dixon, Assistant Inspector General for Aviation and Special Program
Audits, at (202) 366-0500.


                                        #


cc: FAA Associate Administrator for Safety
    Director, Aircraft Certification Service
    Ron Gill, AVR-1
                                                                                  18




EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of this audit was to evaluate FAA’s oversight of aircraft
manufacturers’ quality assurance systems for domestic and foreign suppliers. We
conducted this audit between February 2004 and November 2007 in accordance
with Government Auditing Standards prescribed by the Comptroller General of
the United States. We included such tests as necessary to provide reasonable
assurance of detecting abuse or illegal acts.

To evaluate FAA oversight of manufacturers’ quality assurance systems for
suppliers, we visited FAA Headquarters, three Directorates, four FAA
Manufacturing Inspection District Offices (MIDO), and the Certificate
Management Office that oversees Boeing.                In addition, we contacted
5 manufacturers and 21 suppliers to manufacturers, both domestic and foreign.
Exhibit B lists the entities we contacted or visited during our review.

We contracted with Simat, Helliesen and Eichner, Inc. (SH&E), an international
air transport consulting firm, to assist us in reviewing supplier oversight at
17 domestic and 4 foreign facilities. Additionally, the contractor accompanied us
on an FAA supplier control audit of a foreign supplier. To evaluate FAA’s
oversight, we tracked the number of supplier control audits that FAA performed
and determined whether there were trends in the amount of supplier control audits
performed from year to year. We also reviewed FAA’s resource targeting model
and inspectors’ ability to use it to perform oversight.

To evaluate manufacturers’ quality assurance systems, our contractor compared
five manufacturers’ quality system manuals with quality system industry standards
(e.g., ISO 9001) to determine compliance with FAA guidance. Also, the
contractor performed 21 supplier control audits in order to test the quality of FAA
and manufacturers’ oversight.

To select the suppliers to visit, we compiled a universe of common suppliers
among major aircraft and engine manufacturers based on the best information
available at that time. We obtained supplier listings from the manufacturers as we
visited the various MIDOs overseeing them. From the common universe, we
determined which of those suppliers had not been visited by FAA in the 2 years
prior to our audit as part of its supplier control audit program. An OIG statistician
assisted us in selecting the suppliers.




Exhibit A. Objective, Scope, and Methodology
                                                                                                                19




EXHIBIT B. ENTITIES VISITED OR CONTACTED
FAA
Headquarters:

      Aviation Safety (AVS)                                                  Washington, DC

      Aircraft Certification Service (AIR)                                   Washington, DC

Directorates:

      Engine and Propeller Directorate                                       Burlington, MA

      Small Airplane Directorate                                             Kansas City, MO

      Transport Airplane Directorate                                         Renton, WA

Manufacturing Inspection District Offices in:

      Renton, WA

      Vandalia, OH

      Wichita, KS

      Windsor Locks, CT

Certificate Management Office for:

      The Boeing Company                                                     Renton and Everett, WA

MANUFACTURERS
      The Boeing Company                                                     Seattle, WA

      Pratt & Whitney                                                        East Hartford, CT

      General Electric Aircraft Engines                                      Cincinnati, OH

      Bombardier Aerospace/Learjet                                           Wichita, KS

      Rolls-Royce 8                                                          Indianapolis, IN

8
    We did not visit the Rolls-Royce facility. Our consultant reviewed Rolls-Royce’s quality manuals and interviewed
    the FAA inspector.


Exhibit B. Entities Visited or Contacted
                                                                        20


Suppliers to Manufacturers
  ALCOA Fastening Systems                       Torrance, CA
  C.A. Spalding Company                         Croydon, PA
  Corru-Seals, Inc.                             Wallingford, CT
  Custom Control Sensors, Inc.                  Chatsworth, CA
  Eaton Aerospace                               Glenolden, PA
  Eldec Corporation                             Lynnwood, WA
  Frisby Aerospace LLC                          Clemmons, NC
  Goodrich Hella Aerospace Lighting
      Systems GmbH                              Lippstadt, Germany
  Honeywell Aerospace Electronic Systems        Redmond, WA
  Honeywell International Engines
      and Systems                               Tucson, AZ
  Howmet Castings                               Dover, NJ
  Howmet Corporation                            Wichita Falls, TX
  Messier-Bugatti                               Molsheim Cedex,
      Snecma Group                                     France
  Messier-Bugatti                               Velizy-Villacoublay,
      Snecma Group                                     France
  Peco Manufacturing Co. Inc.                   Portland, OR
  Radial Bearing Corporation                    Danbury, CT
  Saint Gobain Performance Plastics             Garden Grove, CA
  Shultz Steel Company                          South Gate, CA
  Vibro-Meter, Inc.                             Manchester, NH
  Vibro-Meter SA                                Fribourg, Switzerland
  WGI Inc.                                      Southwick, MA
Industry Associations

  National Transportation Safety Board          Washington, DC
  General Aviation Manufacturers Association    Washington, DC
  Aerospace Industries Association              Arlington, VA
  International Association of Machinists and
     Aerospace Workers                          Seattle, WA




Exhibit B. Entities Visited or Contacted
                                                                                                      21




APPENDIX. MANAGEMENT COMMENTS


                      Federal Aviation
                      Administration

Memorandum
Date:           December 18, 2007

To:             Robin Hunt, Acting Assistant Inspector General for Aviation and Special Program
                Audits

From:           Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO

Prepared by:    Anthony Williams, x79000

Subject:        OIG Draft Report: Assessment of FAA’s Risk-Based System for Overseeing Aircraft
                Manufacturers’ Suppliers Federal Aviation Administration


Thank you for providing us with the draft report of "Assessment of FAA's Risk-based System for
Overseeing Aircraft Manufacturers' Suppliers." We also recognize the ever-changing nature of
aircraft manufacturing and we will continue to effectively oversee Production Approval Holder's
compliance with the regulations that govern manufacturing of aircraft and related product. As with
any system, continuous improvement is essential, and the FAA appreciates your recommendations.

The FAA partially concurs with recommendation 1, and concurs with recommendations 2 through 6.
Our responses to the recommendations are listed below. Additionally, we respectfully disagree with
certain statements in the draft report, and have previously provided our comments to you.

Recommendation 1: Require manufacturers to establish criteria for conducting on-site audits for
initial supplier approval and conduct periodic audits of suppliers to ensure that quality assurance
systems are followed throughout the supply chain.

FAA Response: Partially concur. There is no regulation to implement this recommendation as a
requirement. However, the FAA agrees that additional supplier selection criteria are appropriate.

FAA Action: Publish criteria in the next revision to Advisory Circular 21-20, Supplier Surveillance,
including a process that evaluates and selects suppliers based on their capability to perform all
manufacturing activities, inspections, and tests necessary to determine conformity of parts or appliances
to the applicable design data and their ability to meet the specified requirements.




Appendix. Management Comments
                                                                                                     22


The process should include criteria for selection, evaluation, reevaluation, and disapproval of suppliers.
These would include the following:

    •   Initial evaluation of suppliers to determine their capability to meet requirements. The need to
        conduct initial onsite evaluations to be determined based on risk. The Production Approval
        Holder (PAH) should make this determination before permitting the supplier to furnish any parts
        or services.
    •   Ongoing evaluations to ensure continued adherence to the requirements.
    •   Periodic onsite evaluation, process reviews, document reviews, or independent product
        evaluations based on risk.

o   June 2008: Create draft material.
o   September 2009: Publish Advisory Circular 21-20.

Recommendation 2: Develop a risk assessment process that emphasizes suppliers of flight-critical
parts (e.g., those that manufacture critical and high-volume parts or use large numbers of suppliers,
etc.) for passenger aircraft.

FAA Response: Concur. In 2007 the FAA developed a new risk assessment tool, Risk Based Resource
Targeting (RBRT), which is designed to assign resources based on risk. RBRT will replace the existing
Resource Targeting process. The RBRT tool will be applied to several Aircraft Certification Service
work processes. The tool has been recently prototyped and is being finalized for deployment. The use of
RBRT for the certificate management process (manufacturers with a production approval) is scheduled
for FY09. The risk assessment indicator questions, used for determining the number and frequency of
supplier control audits, are currently being developed.

FAA Action: Develop and include as a risk indicator the production approval holder’s use of suppliers
of flight-critical parts (e.g., those that manufacture critical and high-volume parts or use large numbers
of suppliers, etc.).

o   June 2008: Develop a risk indicator. Coordinate with Field offices.
o   September 2008: Incorporate risk indicator into RBRT tool (IT Contractor)
o   March 2009: Integrate RBRT into the Certificate Mgt. Information System (IT Rehost).

Recommendation 3: Develop a risk assessment process that reduces the level of subjectivity in
evaluating manufacturers so that inspectors’ risk assessments will be more consistent.

FAA Response: Concur. The RBRT tool discussed in Recommendation 2 uses a methodology that is
standardized across all FAA directorates. Each risk assessment indicator question, used for determining
the number and frequency of surveillance activities, is accompanied by instructional material to aid the
inspector in answering the questions consistently and correctly. The material is very specific and will
reduce the level of subjectivity.

In September 2006 the FAA Aviation Safety organization (A VS) achieved IS09001-2000 Quality
Management System Registration. Each trimester an analysis of data, including work process metrics, is
conducted from the local office level to the AVS executive level. To further ensure objectivity beyond
the new RBRT tool the Aircraft Certification Service will create a new metric to monitor field office
changes to the current Resource Targeting output followed by RBRT output.



Appendix. Management Comments
                                                                                                    23



FAA Action:

o   December 2007: Create QMS metrics to monitor changes to Resource Targeting output.
o   February 2008: Implement QMS metrics to monitor changes to Resource Targeting output.
o   June 2008: Develop less subjective RBRT questions and specific instructional material.
o   September 2008: Incorporate questions into RBRT tool (IT Contractor)
o   March 2009: Integrate RBRT into the Certificate Mgt. Information System (IT Rehost).

Recommendation 4: Require inspectors to review prior manufacturers' audits of suppliers as part of
their analysis of risk and determination of resource targeting.

FAA Response: Concur.

FAA Action: The FAA will develop and issue Directive material that will require the review of a
sample of PAH’s supplier audits during Aircraft Certification System Evaluation Program (ACSEP)
and Principal Inspector (PI) evaluations. The review results will be used for two purposes: (1) as a key
indicator on how to proceed with the ACSEP or PI evaluation and (2) as input into the following year
resource targeting (or RBRT) assessment of the PAH.

o   December 2008: Develop new Directive material.
o   December 2008: Develop new P AH supplier audit results risk indicator.
o   December 2008: Modify resource targeting tool or RBRT.
o   January 2009: Implement.

Recommendation 5: Modify its supplier audit requirements so that the number of audits that
inspectors are required to conduct more directly correlates with the number of suppliers used by the
prime manufacturer.

FAA Response: Concur. The FAA will develop and issue Directive material that will require the
number of supplier control audits to more directly correlate with the number of PAH suppliers.

FAA Action:

o   March 2008: Develop supplier control audit quantity approach.
o   September 2008: Develop new Directive material.
o   March 2009: Implement.

Recommendation 6: Provide inspectors with training on (a) auditing systems or processes, (b)
individual or task -specific elements of a supplier’s operations, and (c) processes for documenting the
results of their reviews.

FAA Response: Concur.

FAA Action: The ACSEP training course is scheduled for a thorough content review in FY08. In
addition, the AIR Aviation Safety Inspector (ASI) Job Functions course is scheduled for a thorough
content review in FY09. This recommendation will be central to the review and follow-on updates of
both courses.

o   September 2008: Complete ACSEP course content review.
o   April 2009: Create new ACSEP Directive material if required.


Appendix. Management Comments
                                                                                      24


o   September 2009: Include changes into the ACSEP Directive.
o   September 2009: Include changes into the ACSEP course.
o   September 2009: Complete ASI Job Functions course content review.
o   April 20 I 0: Create new Certificate Management Directive material if required.
o   September 2010: Include changes into the Certificate Management Directive.
o   September 2010: Include changes into the ASI Job Functions course.




Appendix. Management Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
                  Assessment of FAA’s Risk-Based System for
                 Overseeing Aircraft Manufacturers’ Suppliers

                       Section 508 Compliant Presentation

Figure 1. U.S.- Versus Foreign-Supplied Parts on Boeing Aircraft Models

Parts produced for the Boeing 727 introduced in 1964 are listed below. Note:
the parts for this model in 1964 were only produced in the United States;
none of these parts were supplied by foreign countries.

The following parts for the Boeing 727 were produced in the United States in
1964: wings, inboard flaps, outboard flaps, engine nacelles, engine strut, nose,
front fuselage, center fuselage, center wing box, keel beam, aft fuselage, stabilizer,
dorsal fin, vertical fin, elevators, rudder, passenger doors.

Parts produced for the Boeing 737 introduced in 1967 are listed below with
their domestic and/or foreign suppliers.

 • The following parts for the Boeing 737 were produced in the United States:
   wings, engine nacelles, engine strut, nose, front fuselage, center fuselage,
   center wing box, keel beam, aft fuselage, stabilizer (also produced in China),
   dorsal fin, vertical fin (also produced in China).

 • The following parts for the Boeing 737 were produced in China: stabilizer and
   vertical fin.

 • The following parts for the Boeing 737 were produced in Japan: inboard flaps
   and elevators.

 • The following part for the Boeing 737 was produced in Australia: outboard
   flaps.

 • The following part for the Boeing 737 was produced in the United Kingdom:
   rudder.
Parts produced for the Boeing 747 introduced in 1969 are listed below with
their domestic and/or foreign suppliers.

 • The following parts for the Boeing 747 were produced in the United States:
   wings, engine nacelles, engine strut, nose, front fuselage, center fuselage, keel
   beam, aft fuselage, stabilizer, dorsal fin, vertical fin, elevators, rudder,
   passenger doors.

 • The following parts for the Boeing 747 were produced in Japan: inboard flaps,
   outboard flaps.

 • The following part for the Boeing 747 was produced in Canada: center wing
   box.

Parts produced for the Boeing 757 introduced in 1982 are listed below with
their domestic and/or foreign suppliers.

 • The following parts for the Boeing 757 were produced in the United States:
   wings, engine nacelles, engine strut, nose, front fuselage, center fuselage,
   center wing box, keel beam, aft fuselage, stabilizer (also produced in China),
   vertical fin (also produced in China).

 • The following parts for the Boeing 757 were produced in China: stabilizer and
   vertical fin.

 • The following part for the Boeing 757 was produced in Australia: rudder.

 • The following part for the Boeing 757 was produced in Israel: dorsal fin.

 • The following part for the Boeing 757 was produced in Japan: elevators.

 • The following part for the Boeing 757 was produced in Spain: outboard flaps.

 • The following part for the Boeing 757 was produced in Poland: passenger
   doors.

 • The following part for the Boeing 757 was produced in the United Kingdom:
   inboard flaps.
Parts produced for the Boeing 767 introduced in 1982 are listed below with
their domestic and/or foreign suppliers.

 • The following parts for the Boeing 767 were produced in the United States:
   wings, engine nacelles, engine strut, nose, center wing box, keel beam,
   stabilizer.

 • The following parts for the Boeing 767 were produced in Italy: inboard flaps,
   outboard flaps, vertical fin, elevators, rudder.

 • The following parts for the Boeing 767 were produced in Japan: front fuselage,
   center fuselage, aft fuselage, dorsal fin, passenger doors.

Parts produced for the Boeing 777 introduced in 1995 are listed below with
their domestic and/or foreign suppliers.

 • The following parts for the Boeing 777 were produced in the United States:
   wings, inboard flaps, engine nacelles, engine strut, nose, stabilizer, vertical fin.

 • The following part for the Boeing 777 was produced in Brazil: dorsal fin.

 • The following parts for the Boeing 777 were produced in Australia: elevators
   and rudder.

 • The following part for the Boeing 777 was produced in Italy: outboard flaps.

 • The following parts for the Boeing 777 were produced in Japan: front fuselage,
   center fuselage, center wing box, keel beam, aft fuselage, passenger doors.

Parts produced for the Boeing 787 to be introduced in 2008 are listed below
with their domestic and/or foreign suppliers.

 • The following parts for the Boeing 787 are being produced in the United
   States: inboard flaps (also being produced in Cocos Islands), outboard flaps,
   engine nacelles, engine strut, nose, aft fuselage (also being produced in Italy),
   dorsal fin (also being produced in China), vertical fin (also being produced in
   China).

 • The following parts for the Boeing 787 are being produced in China: dorsal
   fin, vertical fin, rudder.
 • The following part for the Boeing 787 is being produced in Australia: inboard
   flaps.

 • The following parts for the Boeing 787 are being produced in Italy: center
   fuselage, aft fuselage, stabilizer, elevators.

 • The following parts for the Boeing 787 are being produced in Japan: wings,
   front fuselage, center wing box, keel beam.
 • The following part for the Boeing 787 is being produced in France: passenger
   doors.

Source: This information was obtained from multiple sources, including
independent technical reviews and manufacturers’ and suppliers’ websites.

Table. Number of Supplier Audits Completed by FAA for Five Major
Manufacturers (for fiscal years 2003 through 2006)

The table data show that in each of the last 4 fiscal years, FAA has inspected an
average of 1 percent of the total suppliers used by the five manufacturers we
reviewed (these are listed as A through E below).

 • Manufacturer A had a total of 4,012 supplier facilities. In FY 2003, FAA
   completed 2 supplier audits. In FY 2004, FAA completed 1 supplier audit. In
   FY 2005, FAA completed 7 supplier audits. In FY 2006, FAA completed 4
   supplier audits.

 • Manufacturer B had a total of 2,553 supplier facilities. In FY 2003, FAA
   completed 31 supplier audits. In FY 2004, FAA completed 26 supplier audits.
   In FY 2005, FAA completed 15 supplier audits. In FY 2006, FAA completed
   27 supplier audits. (Note: This manufacturer operates seven separate
   manufacturing divisions. As a result, FAA evaluated the seven divisions
   separately for risk assessment purposes, which resulted in more supplier
   control audits.)

 • Manufacturer C had a total of 706 supplier facilities. In FY 2003, FAA
   completed 5 supplier audits. In FY 2004, FAA completed 4 supplier audits. In
   FY 2005, FAA completed 4 supplier audits. In FY 2006, FAA completed 6
   supplier audits.

 • Manufacturer D had a total of 489 supplier facilities. In FY 2003, FAA
   completed 5 supplier audits. In FY 2004, FAA completed 3 supplier audits. In
   FY 2005, FAA completed 1 supplier audit. In FY 2006, FAA completed 2
   supplier audits.

 • Manufacturer E had a total of 367 supplier facilities. In FY 2003, FAA
   completed 0 supplier audits. In FY 2004, FAA completed 2 supplier audits. In
   FY 2005, FAA completed 3 supplier audits. In FY 2006, FAA completed 2
   supplier audits.

Note: The number of supplier facilities listed for each manufacturer is based on
information obtained for 2004.

Source: FAA’s National Supplier Control Audit Schedules, FY 2003-2006

Figure 2. Countries Without a Bilateral Agreement That Make Parts for U.S.
Manufacturers

 • Chile
 • Costa Rica
 • Greece
 • India
 • Luxembourg
 • Mexico
 • Morocco
 • Pakistan
 • Portugal
 • South Korea
 • Tunisia
 • Turkey
 • Ukraine
 • United Arab Emirates
 • Uzbekistan
Figure 3. Percentage of Supplier Facilities Where Deficiencies Were Found

We identified widespread discrepancies at 20 of the 21 suppliers we reviewed,
such as suppliers’ inadequate oversight of the part and component suppliers they
use (i.e., sub-tier oversight), use of out-of-date tools and equipment, and failure to
complete all product testing before shipping parts to the manufacturer.

 • 10 percent of the 21 facilities had product conformity deficiencies.
 • 24 percent of the 21 facilities had deficiencies involving the ability to follow
   management directions.
 • 29 percent of the 21 facilities had management oversight deficiencies.
 • 38 percent of the 21 facilities had product inspection deficiencies.
 • 62 percent of the 21 facilities had FAA oversight deficiencies.
 • 67 percent of the 21 facilities had sub-tier oversight deficiencies.
 • 67 percent of the 21 facilities had records and documentation deficiencies.
 • 43 percent of the 21 facilities had tooling calibration deficiencies.
 • 43 percent of the 21 facilities had employee training deficiencies.
 • 24 percent of the 21 facilities had deficiencies involving valid contracts.
 • 19 percent of the 21 facilities had quality system deficiencies.


Source: Department of Transportation Office of Inspector General, Federal
Aviation Administration Original Equipment Manufacturer Oversight Audit,
Simat, Helliesen and Eichner, Inc.
